VA Office of Inspector General
                                 OFFICE OF AUDITS & EVALUATIONS




                                                                   Department of 

                                                                  Veterans Affairs 

                                                                    Federal Information 

                                                                   Security Management 

                                                                       Act Audit for 

                                                                     Fiscal Year 2013 





                                                                                      May 29, 2014
                                                                                       13-01391-72 

              ACRONYMS AND ABBREVIATIONS


CRISP         Continuous Readiness in Information Security Program
DHS           Department of Homeland Security
FISMA         Federal Information Security Management Act
FY            Fiscal Year
NIST          National Institute of Standards and Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget
POA&M         Plans of Action and Milestones
VA            Veterans Affairs




        To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                  (Hotline Information: www.va.gov/oig/hotline) 

        Department of                                            Memorandum
        Veterans Affairs

Date:    May 15, 2014

From:    Assistant Inspector General for Audits and Evaluations (52)

Subj:    VA’s Federal Information Security Management Act Audit for Fiscal Year 2013

To:      Executive in Charge for Information and Technology (005)

         1.	 Enclosed is the final audit report, Federal Information Security Management Act
             Audit for Fiscal Year 2013. The Office of Inspector General (OIG) contracted with
             the independent public accounting firm, CliftonLarsonAllen LLP, to assess the
             Department of Veterans Affairs’ (VA) information security program in accordance
             with the Federal Information Security Management Act (FISMA).

         2.	 To ensure the adequacy and effectiveness of information security controls, FISMA
             requires agency program officials, Chief Information Officers, and Inspectors General
             to conduct annual reviews of the agency’s information security program and report
             the results to the Department of Homeland Security (DHS). DHS uses these data to
             assist in its oversight responsibilities and to prepare an annual report to Congress on
             agency compliance with FISMA.

         3.	 VA continues to face significant challenges in complying with the requirements of
             FISMA due to the nature and maturity of its information security program. In order
             to better achieve FISMA outcomes, VA needs to focus on several key areas
             including:

         	 Addressing security-related issues that contributed to the information technology
            material weakness reported in the fiscal year (FY) 2013 audit of VA’s consolidated
            financial statements.
         	 Remediating high-risk system security issues identified within its Plans of Action and
            Milestones.
         	 Establishing effective processes for evaluating information security controls via
            continuous monitoring and security vulnerability assessments.

         4.	 CliftonLarsonAllen LLP was contracted to perform the FISMA audit and is
             responsible for the findings and recommendations included in this report. The OIG
             does not express an opinion on the effectiveness of VA’s internal controls during
             FY 2013.

         5.	 This report provides 35 recommendations for improving VA’s information security
             program; 30 recommendations are included in the report body and
   5 recommendations are provided in Appendix A. The appendix addresses the status
   of prior year recommendations not included in the report body and VA’s plans for
   corrective action. Some recommendations were modified or not closed because
   relevant information about security policies and procedures was not finalized or
   information security control deficiencies were repeated during the FY 2013 FISMA
   audit.    CliftonLarsonAllen LLP examined whether VA’s corrective actions
   successfully addressed the outstanding recommendations.

6.	 The effect of these open recommendations needs to be considered in the
    FY 2014 assessment of VA’s security posture. We remain concerned that
    continuing delays in implementing effective corrective actions to address these open
    recommendations can potentially contribute to reporting an IT material weakness
    from this year’s audit of VA’s Consolidated Financial Statements.

7.	 Our independent auditors will follow up on the outstanding recommendations and
    evaluate the adequacy of corrective actions during the FY 2014 FISMA audit.




LINDA A. HALLIDAY 

                                                                          CliftonLarsonAllen LLP
                                                                          11710 Beltsville Drive, Suite 300
                                                                          Calverton, MD 20705
                                                                          301-931-2050 | fax 301-931-1710
                                                                          www.cliftonlarsonallen.com



April 18, 2014


The Honorable Richard Griffin
Acting Inspector General
Department of Veterans Affairs
801 I Street, Northwest
Washington, DC 20001

Dear Mr. Griffin:

Attached is our report on the performance audit we conducted to evaluate the Department of
Veterans Affairs’ (VA) compliance with the Federal Information Security Management Act of
2002 (FISMA) for the federal fiscal year ending September 30, 2013 in accordance with
guidelines issued by the United States Office of Management and Budget (OMB) and applicable
National Institute for Standards and Technology (NIST) information security guidelines.

CliftonLarsonAllen LLP was contracted to perform the FISMA audit and is responsible for the
findings and recommendations highlighted in the attached report. We conducted this
performance audit in accordance with Government Auditing Standards developed by the
Government Accountability Office. This is not an attestation level report as defined under the
American Institute of Certified Public Accountants standards for attestation engagements. Our
procedures were designed to respond to the FISMA-related questions outlined in the OMB
template for the Inspectors General and evaluate VA’s information security program’s
compliance with FISMA requirements and applicable NIST information security guidelines as
defined in our audit program. Based on our audit procedures, we conclude that VA continues to
face significant challenges meeting the requirements of FISMA.

We have performed the FISMA performance audit, using procedures prepared by
CliftonLarsonAllen LLP and approved by the Office of the Inspector General (OIG), during the
period April 2013 through November 2013. Had other procedures been performed, or other
systems subjected to testing, different findings, results, and recommendations might have been
provided. The projection of any conclusions, based on our findings, to future periods is subject to
the risk that changes made to the information security program or controls, or the failure to make
needed changes to the system or controls may alter the validity of such conclusions.

We performed limited reviews of the findings, conclusions, and opinions expressed in this report
that were related to the financial statement audit performed by CliftonLarsonAllen LLP. The
financial statement audit results have been combined with the FISMA performance audit
findings. We do not provide an opinion regarding the results of the financial statement audit
results. In addition to the findings and recommendations, our conclusions related to VA are
contained within the OMB FISMA reporting template provided to the OIG in November 2013.
The completion of the OMB FISMA reporting template was based on management’s assertions
and the results of our FISMA test procedures while the OIG determined the status of the prior
year recommendations with the support of CliftonLarsonAllen.

This report is intended solely for those on the distribution list on Appendix F, and is not intended
to be and should not be used by anyone other than these specified parties.

Sincerely,


CLIFTONLARSONALLEN LLP




GFF:sgd 
                   Report Highlights: VA’s Federal
                   Information Security Management Act
                   Audit for Fiscal Year 2013

Why We Did This Audit                          implemented procedures to identify and
                                               remediate system security vulnerabilities on
The      Federal    Information     Security   network devices, database and server
Management Act (FISMA) requires agency         platforms, and Web applications VA-wide.
Inspectors General to annually assess the
effectiveness of agency information security   Further,    VA      has     not   remediated
programs and practices. Our FY 2013 audit      approximately 6,000 outstanding system
determined the extent to which VA’s            security risks in its corresponding Plans of
information security program complied with     Action and Milestones to improve its overall
FISMA requirements and applicable              information security posture. As a result of
National Institute for Standards and           the FY 2013 consolidated financial
Technology guidelines. We contracted with      statement audit, CliftonLarsonAllen LLP
the     independent      accounting    firm    concluded a material weakness still exists in
CliftonLarsonAllen LLP to perform this         VA’s information security program.
audit.
                                               What We Recommended
What We Found
                                               We recommended the Executive in Charge
VA has made progress developing policies       for Information and Technology implement
and procedures but still faces challenges      comprehensive measures to mitigate security
implementing components of its agency-         vulnerabilities affecting VA’s mission-
wide information security risk management      critical systems.
program to meet FISMA requirements.
While some improvements were noted,            Agency Comments
FISMA audits continued to identify
significant deficiencies related to access     The Executive in Charge for Information
controls,     configuration      management    and Technology generally agreed with our
controls, continuous monitoring controls,      findings and recommendations. We will
and service continuity practices designed to   monitor implementation of the corrective
protect mission-critical systems.              action plans.

Weaknesses in access and configuration
management controls resulted from VA not
fully    implementing  security   control
standards on all servers and network
devices.    VA also has not effectively
                                           TABLE OF CONTENTS 

Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    Finding 1              Agency-Wide Risk Management Program .........................................................2
 
                           Recommendations ...............................................................................................5
 
    Finding 2              Identity Management and Access Controls ........................................................6
 
                           Recommendations ...............................................................................................7
 
    Finding 3              Configuration Management Controls..................................................................9
 
                           Recommendations .............................................................................................10
 
    Finding 4              System Development/Change Management Controls ......................................11
 
                           Recommendation...............................................................................................11
 
    Finding 5              Contingency Planning .......................................................................................12
 
                           Recommendations .............................................................................................12
 
    Finding 6              Incident Response .............................................................................................14
 
                           Recommendations .............................................................................................15
 
    Finding 7              Continuous Monitoring .....................................................................................16
 
                           Recommendations .............................................................................................17
 
    Finding 8              Security Capital Planning..................................................................................18
 
                           Recommendation...............................................................................................18
 
    Finding 9              Contractor Systems Oversight...........................................................................19
 
                           Recommendations .............................................................................................19
 
    Finding 10             Security Awareness Training ............................................................................20
 
                           Recommendation...............................................................................................20
 
Appendix A                 Status of Prior-Year Recommendations ........................................................... 22
 
Appendix B                 Background ...................................................................................................... 26
 
Appendix C                 Scope and Methodology................................................................................... 28
 
Appendix D                 Executive in Charge for Information and Technology Comments .................. 30
 
Appendix E                 Office of Inspector General Contact and Staff Acknowledgements ................ 41
 
Appendix F                 Report Distribution .......................................................................................... 42
 
                                 VA’s Federal Information Security Management Act Audit for FY 2013



                    INTRODUCTION
Objective           The objective of this audit was to determine the extent to which VA’s
                    information security program and practices comply with Federal
                    Information Security Management Act (FISMA) requirements,
                    Department of Homeland Security (DHS) reporting requirements, and
                    applicable Office of Management and Budget (OMB) and National Institute
                    for Standards and Technology (NIST) guidance. The VA Office of
                    Inspector General (OIG) contracted with the independent accounting firm
                    CliftonLarsonAllen LLP to perform the fiscal year (FY) 2013 FISMA audit.

Overview            Information security is a high-risk area Government-wide. Congress
                    passed the E-Government Act of 2002 (Public Law 107-347) in an
                    effort to strengthen Federal information security programs and practices.
                    FISMA provides a comprehensive framework to ensure the effectiveness of
                    security controls over information resources that support Federal
                    operations and assets. Audit teams assessed VA’s information security
                    program through inquiries, observations, and tests of selected controls
                    supporting 79 major applications and general support systems at 24 VA
                    facilities. As noted in last year’s FISMA report, the teams identified
                    specific deficiencies in the following areas:

                    1.      Agency-Wide Risk Management Program
                    2.      Identity Management and Access Controls
                    3.      Configuration Management Controls
                    4.      System Development/Change Management Controls
                    5.      Contingency Planning
                    6.      Incident Response
                    7.      Continuous Monitoring
                    8.      Security Capital Planning
                    9.      Contractor Systems Oversight
                    10.     Security Awareness Training

                    This report provides 35 total recommendations, including three new
                    recommendations, for improving VA’s information security program.
                    Thirty recommendations are included in the report body and five
                    recommendations are provided in Appendix A. The appendix addresses the
                    status of prior recommendations not included in the report body and VA’s
                    plans for corrective action. The FY 2012 FISMA report provided
                    32 recommendations for improvement.




VA Office of Inspector General                                                                   1
                                 VA’s Federal Information Security Management Act Audit for FY 2013



                    RESULTS AND RECOMMENDATIONS
Finding 1           Agency-Wide Risk Management Program

                    FISMA requires each Federal agency to develop, document, and
                    implement an agency-wide information security risk management
                    program. VA has made progress developing policies and procedures as
                    part of its program. However, VA still faces challenges implementing
                    components of its agency-wide information security risk management
                    program to meet FISMA requirements. Consequently, FISMA audits
                    continue to identify significant deficiencies related to access controls,
                    configuration management controls, change management controls, and
                    service continuity practices designed to protect mission-critical systems
                    from unauthorized access, alteration, or destruction.

Progress Made       In 2007, VA issued VA Directive 6500, Information Security Program,
While               and VA Handbook 6500, Information Security Program, defining the
Challenges
Remain
                    high-level policies and procedures to support its agency-wide information
                    security risk management program. In FY 2012, VA updated VA
                    Handbook 6500 to be consistent with revised NIST Special Publications
                    and to supplement existing VA directives and handbooks. OMB
                    Memorandum M-14-04, Fiscal Year 2013 Reporting Instructions for the
                    Federal Information Security Management Act and Agency Privacy
                    Management, issued in November 2013, provides guidance for Federal
                    agencies to follow in meeting the report requirements under FISMA.

                    To address annual reporting requirements and ongoing system security
                    weaknesses, VA launched a Continuous Readiness in Information Security
                    Program (CRISP) in FY 2012. The program is intended to improve access
                    controls, configuration management, contingency planning, and the security
                    management of a large number of information technology systems. VA also
                    established a CRISP core team to oversee this initiative and resolve the
                    information security material weakness related to information technology
                    security controls, as reported in VA’s annual audit of its consolidated
                    financial status. As a result of the CRISP initiative, we noted improvements
                    related to:

                    	      Providing consistent training for both role-based and security
                            awareness 
                    	      Testing contingency plans  
                    	      Reducing the number of individuals with outdated background
                            investigations 
                    	      Improving data center Web application security 



VA Office of Inspector General                                                                   2
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    	      Implementing predictive scanning that allows for the identification of
                            vulnerabilities across field offices
                    	      Implementing an IT governance, risk, and compliance tool to
                            improve processes for assessing, authorizing, and monitoring the
                            security posture of VA systems

                    However, these controls require time to mature and show evidence of their
                    effectiveness. Accordingly, we continue to see information system security
                    deficiencies similar in type and risk level to our findings in prior years and
                    an overall inconsistent implementation of the security program. Moving
                    forward, VA needs to ensure a proven process is in place across the agency.
                    VA also needs to continue to address control deficiencies that exist in other
                    areas across all VA locations. While VA has made progress updating risk
                    management policies and procedures, our FISMA audits identified
                    deficiencies related to VA’s risk management strategy, Plans of Action and
                    Milestones (POA&Ms), and system security plans—all are discussed in the
                    following section. Each of these processes is vital for protecting VA’s
                    mission-critical systems through appropriate risk mitigation strategies.

Risk                VA has not fully developed and implemented components of its agency-wide
Management          information security risk management program to meet FISMA
Strategy
                    requirements.      VA has established an enterprise risk management
                    framework; however, security risks were not communicated to the data
                    centers, regional offices, and medical facilities we visited. Additionally, VA
                    has not ensured that its information security controls are effectively
                    monitored on an ongoing basis to include documenting significant changes to
                    the system, conducting security impact analyses for system changes, and
                    reporting system changes to designated organizational officials. Risk
                    assessments were not properly updated as they included references to
                    inaccurate system environment information.            Further, some security
                    self-assessments were not performed annually in accordance with FISMA
                    requirements.

                    NIST SP 800-37, Guide for Applying the Risk Management Framework to
                    Federal Information Systems: A Security Life Cycle Approach, states that an
                    agency’s risk management framework should address “risk from an
                    organizational perspective with the development of a comprehensive
                    governance structure and organization-wide risk management strategy.” VA
                    recently updated its VA Handbook 6500 to provide guidelines on how to
                    comply with revised risk management requirements. Additionally, VA is
                    implementing a risk governance structure, including a Risk Management
                    Governance Board, to monitor system security risks and implement risk
                    mitigation controls across the enterprise. Until this effort is complete,
                    enterprise-wide risks may not be fully identified or mitigated with
                    appropriate risk mitigation strategies.




VA Office of Inspector General                                                                   3
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Plans of            OMB Memorandum M-02-01, Guidance for Preparing and Submitting
Action and          Security Plans of Action and Milestones, defines management and reporting
Milestones
                    requirements for agency POA&Ms, including deficiency descriptions,
                    remediation actions, required resources, and responsible parties. According
                    to data available from VA’s central reporting database, VA has
                    approximately 6,000 open POA&Ms in FY 2013 compared with 4,000 open
                    corrective actions in FY 2012. POA&Ms identify which actions must be
                    taken to remediate system security risks and improve VA’s information
                    security posture.

                    VA did not include prior year information security POA&Ms within its
                    legacy central reporting database because of a planned transition to a new
                    centralized Governance, Risk, and Compliance monitoring and reporting
                    system. In the interim, the Office of Information Technology established a
                    SharePoint site to track prior year findings and corrective actions. However,
                    VA does not have an accurate representation of total POA&Ms since it has
                    not added any new corrective actions to its central database since
                    March 2012.

                    VA has made progress in updating POA&Ms in a timely manner across VA
                    sites and systems. Despite these improvements, audit teams continue to
                    identify deficiencies related to reporting, managing, and closing POA&Ms.
                    For example, audit teams identified POA&Ms that lacked sufficient
                    documentation to justify closure, action items that missed major milestones,
                    and items that were not updated to accurately reflect their current status. In
                    addition, many POA&Ms were closed based upon Executive Decision
                    Memoranda or Risk-Based Decision Memoranda. However, system security
                    risks that still remain as the underlying weaknesses have not been fully
                    remediated.

                    POA&M deficiencies resulted from a lack of accountability for closing
                    items and a lack of controls to verify supporting documentation had been
                    added to the central database. Furthermore, unclear responsibility for
                    addressing POA&M records at the “local” level continues to adversely affect
                    remediation efforts across the enterprise. By failing to fully remediate
                    significant system security risks in the near term, VA management cannot
                    ensure that information security controls will protect VA systems
                    throughout their life cycles. Without sufficient documentation in the
                    central database to justify closure of POA&Ms, VA cannot ensure that
                    corresponding security risks have been fully mitigated.

System              Audit teams continue to identify system security plans with inaccurate
Security Plans      information regarding operational environments including system
                    interconnections and compensating information security controls. VA
                    Handbook 6500, Appendix D provides guidelines on maintaining and
                    updating system security plans for major applications and general support
                    systems. Because of deficiencies in this area, system owners may not fully


VA Office of Inspector General                                                                   4
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    identify relative boundaries, interdependencies, compensating information
                    security controls, and security risks affecting mission-critical systems.

                    Recommendations

                    1.	     We recommended the Executive in Charge for Information and
                            Technology fully develop and implement an agency-wide risk
                            management governance structure, along with mechanisms to
                            identify, monitor, and manage risks across the enterprise. (This is
                            a repeat recommendation from last year.)

                    2.	     We recommended the Executive in Charge for Information and
                            Technology implement mechanisms to ensure sufficient
                            supporting documentation is captured in the central database to
                            justify closure of Plans of Action and Milestones. (This is a
                            repeat recommendation from last year.)

                    3.	     We recommended the Executive in Charge for Information and
                            Technology define and implement clear roles and responsibilities
                            for developing, maintaining, completing, and reporting Plans of
                            Action and Milestones. (This is a repeat recommendation from last
                            year.)

                    4.	     We recommended the Executive in Charge for Information and
                            Technology implement mechanisms to ensure Plans of Action
                            and Milestones are updated to accurately reflect current status
                            information. (This is a repeat recommendation from last year.)

                    5.	     We recommended the Executive in Charge for Information and
                            Technology develop mechanisms to ensure system security plans
                            reflect current operational environments, including accurate
                            system interconnection and ownership information. (This is a
                            repeat recommendation from last year.)

                    6.	     We recommended the Executive in Charge for Information and
                            Technology implement improved processes for updating key
                            security documents such as risk assessments, security impact
                            analyses, and security self-assessments on at least an annual basis
                            and ensure all required information accurately reflects the current
                            environment. (This is a repeat recommendation from last year.




VA Office of Inspector General                                                                   5
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 2           Identity Management and Access Controls

                    Audit teams identified significant deficiencies in VA’s identity
                    management and access controls. VA Handbook 6500, Appendixes D and F,
                    provides comprehensive guidelines for authenticating users and protecting
                    VA’s critical systems from unauthorized access, alteration, or destruction.
                    Our FISMA audit identified significant information security control
                    deficiencies in the following areas:

                       Password Management 
                       Access Management 
                       Audit Trails 
                       Remote Access  

Password            While VA Handbook 6500, Appendix F establishes password management
Management          standards for authenticating VA system users, our audit teams
                    continued to identify multiple password management vulnerabilities. For
                    example, the teams found a significant number of weak passwords on major
                    databases, applications, and networking devices at most VA facilities.
                    Additionally, password parameter settings for network domains, databases,
                    key financial applications, and servers were not consistently configured to
                    enforce VA’s password policy standards.

                    While some improvements have been made, we continue to identify security
                    weaknesses that were not remediated from prior years. Many of these
                    weaknesses can be attributed to VA’s ineffective enforcement of its
                    agency-wide information security risk management program and
                    ineffective communication from senior management to the individual field
                    offices. The use of weak passwords is a well-known security vulnerability
                    that allows malicious users to easily gain unauthorized access to
                    mission-critical systems.

Access              VA Handbook 6500, Appendix D details access management policies and
Management          procedures for VA’s information systems. However, reviews of permission
                    settings identified numerous instances of unnecessary system privileges,
                    excessive and unauthorized user accounts, accounts without formal access
                    authorizations, and active accounts for terminated employees. User access
                    requests were not consistently reviewed to eliminate conflicting roles and
                    enforce segregation of duties principles. Additionally, we noted inconsistent
                    monitoring of access in production environments for individuals with
                    excessive privileges within major applications. This occurred because VA has
                    not implemented effective reviews to eliminate instances of unauthorized
                    system access and excessive permissions. Periodic reviews are critical to
                    restrict legitimate users to specific systems, programs, and data and to prevent
                    unauthorized access by both internal and external users. Unauthorized access


VA Office of Inspector General                                                                    6
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    to critical systems can leave sensitive data vulnerable to inappropriate
                    modification or destruction.

Audit Trails        VA did not consistently review security violations and audit logs supporting
                    mission-critical systems. VA Handbook 6500, Appendix D provides
                    high-level policy and procedures for collection and review of system audit
                    logs. However, most VA facilities did not have audit policy settings
                    configured on major systems and had not implemented automated
                    mechanisms needed to periodically monitor systems audit logs. Audit log
                    reviews are critical for security-related activities, such as determining
                    individual accountability, reconstructing security events, detecting intruders,
                    and identifying system performance issues.
Remote              VA lacks a consistent process for managing remote access to VA
Access              networks. VA does not have policies that provide reasonable
                    assurance of restricting privileged remote access from foreign
                    countries that may pose a significant security risk to VA systems. In
                    addition, multi-factor authentication for remote access has not been
                    fully implemented across the agency.           VA Handbook 6500,
                    Appendix D establishes high-level policy and procedures for
                    managing remote connections.

                    VA personnel can remotely log onto VA networks using several
                    virtual private network applications for encrypted remote access.
                    However, one specific application does not ensure end-user computers are
                    updated with current system security patches and antivirus signatures
                    before users remotely connect to VA networks. Although the remote
                    connections are encrypted, end-user computers could be infected with
                    malicious viruses or worms, which can easily spread to interconnected
                    systems. VA is migrating most remote users to virtual private network
                    solutions that will better protect end-user computers through automated
                    system updates. Moving forward, VA needs to fully implement
                    multi-factor authentication for remote access and ensure that all remote
                    users’ computers are adequately protected from secure locations before
                    connecting to VA networks.

                    Recommendations

                    7.	     We recommended the Executive in Charge for Information and
                            Technology implement mechanisms to enforce VA password
                            policies and standards on all operating systems, databases,
                            applications, and network devices.      (This is a repeat
                            recommendation from last year.)

                    8.	     We recommended the Executive in Charge for Information and
                            Technology implement periodic access reviews to minimize
                            access by system users with incompatible roles, permissions in


VA Office of Inspector General                                                                   7
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                            excess of required functional responsibilities, and excessive or
                            unauthorized accounts. (This is a modified repeat recommendation
                            from last year.)

                    9.	     We recommended the Executive in Charge for Information and
                            Technology enable system audit logs and conduct centralized
                            reviews of security violations on mission-critical systems. (This
                            is a repeat recommendation from last year.)

                    10.	    We recommended the Executive in Charge for Information and
                            Technology implement mechanisms to ensure all remote access
                            computers have updated security patches and antivirus definitions
                            prior to connecting to VA information systems. (This is a repeat
                            recommendation from last year.)

                    11.	    We recommended the Executive in Charge for Information and
                            Technology implement two-factor authentication for remote
                            access throughout the agency. (This is a repeat recommendation
                            from last year.)

                    12.	    We recommended the Executive in Charge for Information and
                            Technology develop and implement policies and procedures for
                            restricting privileged remote access from foreign countries that
                            may pose a significant security risk to VA systems. (This is a new
                            recommendation.)




VA Office of Inspector General                                                                   8
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 3           Configuration Management Controls

                    Audit teams continue to identify significant deficiencies in configuration
                    management controls designed to ensure VA’s critical systems have
                    appropriate security baselines and up-to-date vulnerability patches
                    implemented. VA Handbook 6500, Appendix D provides high-level policy
                    guidelines regarding mandatory configuration settings for information
                    technology hardware, software, and firmware. However, testing identified
                    unsecure Web application servers, excessive permissions on database
                    platforms, a significant number of outdated and vulnerable third-party
                    applications and operating system software, and a lack of common platform
                    security standards across the enterprise.

Unsecure Web        Audits of Web-based applications identified instances of VA data
Applications        facilities hosting unsecure Web-based services that could allow
                    malicious users to gain unauthorized access to VA information systems.
                    NIST Special Publication 800-44, Version 2, Guidelines on Securing Public
                    Web Servers, recommends “Organizations should implement appropriate
                    security management practices and controls when maintaining and operating
                    a secure Web server.” Despite the guidelines, VA has not implemented
                    effective controls to identify and remediate security weaknesses on its Web
                    applications. VA has mitigated some information system security risks
                    from the Internet through the use of network filtering appliances.
                    However, VA’s internal network remains susceptible to attack from
                    malicious users who could exploit vulnerabilities and gain unauthorized
                    access to VA information systems.

Unsecure            Database vulnerability audits continue to identify a significant number of
Database            unsecure configuration settings that could allow any database user to gain
Applications
                    unauthorized access to critical system information. NIST Special
                    Publication 800-64, Revision 1, Security Considerations in the Information
                    System Development Life Cycle, states that configuration management and
                    control procedures are critical to establishing an initial baseline of
                    hardware, software, and firmware components for the information system.
                    VA has not implemented effective controls to identify and remediate
                    security weaknesses on databases hosting mission-critical applications.
                    Unsecure database configuration settings can allow any database user to
                    gain unauthorized access to critical systems information.

Application         Network vulnerability audits again identified a significant number of
and System          outdated operating systems and vulnerable third-party applications that
Software            could allow unauthorized access to mission-critical systems and data.
Vulnerabilities
                    NIST Special Publication 800-40, Version 2, Creating a Patch and
                    Vulnerability Management Program, states an agency’s patch and
                    vulnerability management program should be integrated with configuration
                    management to ensure efficiency. VA has not implemented effective



VA Office of Inspector General                                                                   9
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    controls to identify and remediate security weaknesses associated with
                    outdated third-party applications and operating system software.
                    Deficiencies in VA’s patch and vulnerability management program could
                    allow malicious users unauthorized access to mission-critical systems and
                    data. By implementing a robust patch and vulnerability management
                    program, VA could effectively remediate vulnerabilities identified in
                    operating systems, databases, applications, and other network devices.

Baseline            VA is developing guidelines to define agency-wide security configuration
Security            baselines for its major information system components. FISMA, Section
Configurations
                    3544 requires each agency to establish minimally acceptable system
                    configuration requirements and ensure compliance. However, we noted
                    that common platform security standards were not consistently
                    implemented on all VA systems. For example, testing at VA facilities
                    revealed varying levels of compliance, ranging from 78 to 98 percent, with
                    United States Government Configuration Baseline standards for end-user
                    systems. Testing also identified numerous network devices not configured
                    to a common security configuration standard, resulting in default network
                    services, excessive permissions, weak administrator passwords, and
                    outdated versions of the network operating system. By not implementing
                    consistent agency-wide configuration management standards for major
                    applications and general support systems, VA is placing critical systems at
                    unnecessary risk of unauthorized access, alteration, or destruction.

                    Recommendations

                    13.	    We recommended the Executive in Charge for Information and
                            Technology implement effective automated mechanisms to
                            continuously identify and remediate security deficiencies on
                            VA’s network infrastructure, database platforms, and Web
                            application servers. (This is a repeat recommendation from last
                            year.)

                    14.	    We recommended the Executive in Charge for Information and
                            Technology implement a patch and vulnerability management
                            program to address security deficiencies identified during our
                            audits of VA’s Web applications, database platforms, network
                            infrastructure, and work stations. (This is a repeat recommendation
                            from last year.)

                    15.	    We recommended the Executive in Charge for Information and
                            Technology implement standard security configuration baselines
                            for all VA operating systems, databases, applications, and
                            network devices. (This is a repeat recommendation from last
                            year.)




VA Office of Inspector General                                                                  10
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 4           System Development/Change Management Controls

                    VA has not fully implemented procedures to enforce standardized
                    system development and change management controls for
                    mission-critical systems. Our audit teams continued to identify software
                    changes to mission-critical systems and infrastructure network devices that
                    did not follow standardized software change control procedures.

                    FISMA, Section 3544 requires establishing policies and procedures to
                    ensure information security is addressed throughout the life cycle of each
                    agency information system. VA Handbook 6500.5, Incorporating Security
                    and Privacy into the System Development Life Cycle, also discusses
                    integrating information security controls and privacy throughout the life
                    cycle of each system.

                    Further, numerous test plans, test results, and approvals were either
                    incomplete or missing. By not enforcing a standardized change control
                    methodology, system development projects may be inconsistently
                    developed, tested, and migrated into production, placing VA systems at
                    risk of unauthorized or unintended software modifications.

                    Recommendation

                    16.	    We recommended the Executive in Charge for Information and
                            Technology implement procedures to enforce a system
                            development and change control framework that integrates
                            information security throughout the life cycle of each system.
                            (This is a repeat recommendation from last year.)




VA Office of Inspector General                                                                  11
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 5           Contingency Planning

                    Overall, we noted an improvement in contingency plan testing since our
                    FY 2012 audit. However, VA contingency plans still were not fully
                    documented and test results were not consistently communicated to senior
                    management. VA Handbook 6500, Appendix D establishes high-level
                    policy and procedures for contingency planning and plan testing. Our
                    audit identified the following deficiencies related to contingency planning:

                    	      Many Information System Contingency Plans had not been updated
                            to reflect lessons learned from contingency and disaster recovery
                            tests, provide detailed recovery procedures for all system priority
                            components, or reflect current operating conditions. 
                    	      Alternate processing site agreements between the regional offices and
                            Information Technology Centers were not in place to ensure all
                            parties are aware of respective responsibilities in the event of a
                            disaster. 
                    	      Backup tapes for mission-critical systems were not encrypted prior to
                            being sent offsite for storage.  
                    	      A significant data loss occurred at the Austin Information
                            Technology Center due to inadequate backup and change
                            management procedures.  

                    Incomplete documentation of test plans, test results, and alternate
                    processing site agreements prevent timely restoration of services in the
                    event of system disruption or disaster. Inadequate backup testing leads to
                    critical system failures. Inadequate communication of test results may also
                    prevent lessons learned from being recognized and adopted. Moreover, by
                    not encrypting backup tapes, VA is at risk of potential data theft or
                    unauthorized disclosure of sensitive data.

                    In October 2011, VA implemented the Office of Information and
                    Technology Annual Security Calendar requiring all Information System
                    Contingency and Disaster Recovery Plans to be updated on an annual
                    basis. However, updated plans continue to have weaknesses similar to
                    those noted in FY 2012.

                    Recommendations

                    17.	    We recommended the Executive in Charge for Information and
                            Technology implement processes to ensure information system
                            contingency plans are updated with the required information and
                            lessons learned are communicated to senior management. (This is
                            a repeat recommendation from last year.)



VA Office of Inspector General                                                                  12
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    18.	    We recommended the Executive in Charge for Information and
                            Technology develop and implement a process for ensuring the
                            encryption of backup data prior to transferring the data offsite.
                            (This is a repeat recommendation from last year.)

                    19.	    We recommended the Executive in Charge for Information and
                            Technology ensure that agreements for alternate processing sites
                            have been established that define the roles and responsibilities for
                            alternate locations in the event of a disaster. (This is a repeat
                            recommendation from last year.)

                    20.	    We recommended the Executive in Charge for Information and
                            Technology review change management procedures to ensure
                            that any changes to system backup procedures are appropriately
                            tested, validated, documented, and approved. (This is a new
                            recommendation.)




VA Office of Inspector General                                                                  13
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 6           Incident Response

                    VA is unable to monitor all external interconnections and internal network
                    segments for malicious traffic or unauthorized systems access attempts.
                    FISMA, Section 3544 requires each agency to develop and implement an
                    agency-wide information security program containing specific procedures for
                    detecting, reporting, and responding to computer security incidents. Audit
                    teams identified deficiencies with VA’s security incident management and
                    external network monitoring processes.

                    VA performs significant monitoring of its known Internet gateways to
                    identify and respond to computer security events and potential network
                    intrusions. This monitoring includes some event correlation, which ties
                    multiple entries together to identify larger trends, intrusions, or intrusion
                    attempts. However, VA has not fully implemented security information
                    and event management technologies needed for effective event
                    correlation analysis. VA does not have automated 24-hour security alert
                    capability for all platforms and databases hosted at its Information
                    Technology Centers. Furthermore, VA did not provide the OIG’s Office of
                    Audits and Evaluations with timely notifications of network intrusions and
                    system compromises.

                    To improve incident management, VA’s Network Security Operations
                    Center continues to implement its Trusted Internet Connection initiative to
                    identify all system interconnections and consolidate them into four VA
                    gateways. Although progress has been made in cataloging the many
                    interconnections for monitoring purposes, unknown and unmonitored
                    connections still exist. In addition, our audit teams continued to identify
                    several system interconnections without valid Interconnection Security
                    Agreements and Memoranda of Understanding to govern them.
                    Ineffective monitoring of external network interconnections could prevent
                    VA from detecting and responding to intrusion attempts in a timely manner.

                    Our audit continued to identify numerous high-risk computer security
                    incidents, including malware infections that were not remediated in a timely
                    manner. Specifically, we noted a high number of malware security incident
                    tickets that took more than 30 days to remediate and close. While VA’s
                    performance has improved from the prior year, the process for tracking
                    higher risk tickets remained inefficient, and some computer security
                    incidents were not remediated. By contrast, NIST Special Publication
                    800-61, Computer Security Incident Handling Guide, provides examples of
                    computer security incident response times ranging from 15 minutes to
                    4 hours, based on criticality of the incidents. The guide also recommends
                    that organizations develop their own incident response times based on
                    organizational needs and the criticality of resources affected by the security
                    incidents.



VA Office of Inspector General                                                                  14
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    Recommendations

                    21.	    We recommended the Executive in Charge for Information and
                            Technology fully implement an automated 24-hour security event and
                            incident correlation solution to monitor security for all systems
                            interconnections, database security events, and mission-critical
                            platforms supporting VA programs and operations. (This is a repeat
                            recommendation from last year.)

                    22.	    We recommended the Executive in Charge for Information and
                            Technology identify all external network interconnections and
                            ensure appropriate Interconnection Security Agreements and
                            Memoranda of Understanding are in place to govern them. (This
                            is a repeat recommendation from last year.)

                    23.	    We recommended the Executive in Charge for Information and
                            Technology implement more effective agency-wide incident response
                            procedures to ensure timely resolution of computer security incidents
                            in accordance with VA set standards.           (This is a repeat
                            recommendation from last year.)

                    24.	    We recommended the Executive in Charge for Information and
                            Technology provide the Office of Inspector General with timely and
                            formal notifications of network intrusions and system compromises
                            in accordance with the Federal Information Security Management
                            Act. (This is a new recommendation.)




VA Office of Inspector General                                                                  15
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 7           Continuous Monitoring

                    VA lacks an effective continuous monitoring process to identify
                    unsecure system configurations and perform automated monitoring for
                    unauthorized software and hardware devices. In addition, VA has not
                    defined an inventory of authorized hardware and software nor implemented
                    processes for removing unauthorized software on its systems. NIST Special
                    Publication 800-53, Revision 3, Recommended Security Controls
                    for Federal Information Systems and Organizations, outlines the
                    importance of deploying automated mechanisms to detect
                    unauthorized components and configurations within agency networks.

                    Because of inadequate VA monitoring procedures, our technical
                    testing continued to identify significant deficiencies with
                    configuration     management     controls    designed      to     protect
                    mission-critical systems from unauthorized access, alteration, or
                    destruction. For instance, our testing identified unsecure Web
                    application servers, excessive permissions on database platforms, a
                    significant number of outdated third-party applications and operating
                    system software, and inconsistent platform security standards across
                    the enterprise. Without monitoring software and applications installed on
                    VA devices, employees may introduce potentially dangerous software and
                    malware into the VA computing environment.

                    To better meet continuous monitoring requirements, VA’s Information
                    Security Continuous Monitoring program’s Concept of Operations
                    established a centralized, enterprise information technology
                    framework that supports operational security demands for protection
                    of critical information. This framework is based on guidance from
                    Continuous Monitoring Workgroup activities sponsored by DHS and
                    the Department of State. The Office of Cyber Security continues to
                    develop and implement Continuous Monitoring processes to better
                    protect VA systems. The goal of the Information Security Continuous
                    Monitoring program is to examine the enterprise to develop a real-time
                    analysis of actionable risks that may adversely impact mission-critical
                    systems.

                    VA has improved systems and data security control protections by
                    implementing technological solutions, such as secure remote access,
                    application filtering, and portable storage device encryption. Further, VA
                    is deploying various software and configuration monitoring tools to VA
                    facilities as part of its “Visibility to Server” and “Visibility to Desktop”
                    initiatives. However, VA has not fully implemented the tools necessary to
                    inventory the software components supporting critical programs and
                    operations. Incomplete inventories of critical software components can
                    hinder patch management processes and restoration of critical services in the



VA Office of Inspector General                                                                  16
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                    event of a system disruption or disaster. Additionally, our testing revealed
                    that VA facilities had not made effective use of these tools to actively
                    monitor their networks for unauthorized software, hardware devices, and
                    system configurations.

                    Recommendations

                    25.	    We recommended the Executive in Charge for Information and
                            Technology develop a listing of approved software and
                            implement continuous monitoring processes to identify and
                            prevent the use of unauthorized application software, hardware,
                            and system configurations on its networks. (This is a modified
                            repeat recommendation from last year.)

                    26.	    We recommended the Executive in Charge for Information and
                            Technology develop a comprehensive software inventory process to
                            identify major and minor software applications used to support VA
                            programs and operations. (This is a modified repeat recommendation
                            from last year.)




VA Office of Inspector General                                                                  17
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 8           Security Capital Planning

                    VA has not implemented processes to fully account for security-related
                    costs within its capital planning and investment control budget process.
                    As a result, the audit team was unable to trace Plans of Action and
                    Milestones (POA&Ms) remediation costs to corresponding Exhibit 300s
                    for certain mission-critical systems. NIST Special Publication 800-65,
                    Integrating IT Security into the Capital Planning and Investment Control
                    Process, states “the POA&M process provides a direct link to the capital
                    planning process.” On October 17, 2001, OMB issued Memorandum
                    M-02-01, Guidance for Preparing and Submitting Security Plans of Action
                    and Milestones, stating “for each POA&M that relates to a project
                    (including systems) for which a capital asset plan and justification
                    (exhibit 300) was submitted or was a part of the exhibit 53, the unique
                    project identifier must be reflected on the POA&M.”

                    In line with this Federal guidance, VA policy requires that security be
                    included within the capital planning process. However, VA-specific
                    guidance for integrating security into the budgeting process does not exist.
                    Consequently, VA lacks procedures to ensure traceability of POA&M
                    remediation costs to Exhibit 300s. For the future, guidance is needed to
                    ensure security-related needs are consistently evaluated and integrated
                    into the capital planning budget process in accordance with set standards.
                    Without specific guidance, VA cannot ensure that information security is
                    integrated throughout the system life cycle and adequate funding is
                    budgeted to meet information security requirements.

                    Recommendation

                      27. We recommended the Executive in Charge for Information and
                          Technology develop guidance and procedures to integrate information
                          security costs into the capital planning process while ensuring
                          traceability of Plans of Action and Milestones remediation costs to
                          appropriate capital planning budget documents. (This is a repeat
                          recommendation from last year.)




VA Office of Inspector General                                                                  18
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 9           Contractor Systems Oversight

                    In FY 2013, VA did not fully implement contractor oversight procedures as
                    required by FISMA. According to FISMA, Section 3544, an agency should
                    ensure adequate information security for systems that support its
                    operations, including those provided by another agency, contractor, or other
                    source. In addition, VA Handbook 6500.6, Contract Security, provides
                    detailed guidance on contractor systems oversight and establishment
                    of security requirements for all VA contracts involving sensitive VA
                    information. Despite these requirements, our audit disclosed several
                    deficiencies in VA’s contractor oversight activities in FY 2013. Specifically:

                    	 VA did not provide “Authorizations to Operate” for selected
                       contractor-managed systems, formally acknowledging existing system
                       security risks and security controls. 
                    	 VA did not provide evidence that contractor system security controls
                       were appropriate.  
                    	 VA did not provide an annual inventory of contractor systems, including
                       system interfaces and interconnection agreements. 
                    	 VA does not have adequate controls for monitoring cloud computing
                       systems hosted by external contractors.  

                    Without implementing effective oversight mechanisms, VA cannot ensure
                    that contractor security controls adequately protect sensitive systems and
                    data in accordance with its information security requirements.

                    Recommendations

                    28.	    We recommended the Executive in Charge for Information and
                            Technology       implement     procedures       for overseeing
                            contractor-managed, cloud-based systems, ensuring OIG access
                            to those systems, and ensuring information security controls
                            adequately protect VA sensitive systems and data. (This is a
                            modified repeat recommendation from last year.)

                    29.	    We recommended the Executive in Charge for Information and
                            Technology implement mechanisms for updating the Federal
                            Information Security Management Act systems inventory, including
                            contractor-managed systems and interfaces, and annually review the
                            systems inventory for accuracy. (This is a repeat recommendation
                            from last year.)




VA Office of Inspector General                                                                  19
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Finding 10          Security Awareness Training

                    As part of the CRISP initiative, we noted improvements in providing users
                    with required role-based and security awareness training. However, VA has
                    not fully implemented automated processes to track security awareness
                    training for residents, volunteers, and contractors at all VA facilities. As a
                    result, our testing identified personnel who had not completed VA’s security
                    awareness training at some VA facilities. VA Handbook 6500, Appendix D
                    establishes high-level policy and procedures for VA’s security awareness
                    training program, requiring all users of sensitive information to annually
                    complete VA’s security awareness training.

                    VA uses the Talent Management System, an online training system, to
                    provide user access to a number of online training resources and track
                    required security awareness and other training for VA employees and
                    contractors. However, VA relies on manual processes to track fulfillment of
                    training requirements by residents and volunteers, as automated tracking
                    mechanisms have not been fully implemented. Without automated tracking
                    to support centralized monitoring of user training, management cannot
                    ensure that these personnel complete the annual security awareness training
                    requirements. Computer security awareness training is essential to help
                    employees and contractors understand their information security and privacy
                    responsibilities.

                    Recommendation

                    30.	    We recommended the Executive in Charge for Information and
                            Technology implement mechanisms to ensure all users with VA
                            network access participate in and complete required VA-sponsored
                            security awareness training. (This is a repeat recommendation from
                            last year.)

Summary of          The Executive in Charge for Information and Technology generally
Response            concurred with the 30 findings and recommendations provided in the main
From the
Executive in
                    body of this report and prepared a response, which is presented in
Charge for          Appendix D. In his comments, the Executive in Charge for Information and
Information         Technology stated that VA has implemented a Governance, Risk and
Technology          Compliance tool as a major element of its agency-wide risk management
                    governance program. This tool is intended to provide real-time monitoring
                    of VA’s system security posture as well as ensure that Plans of Action and
                    Milestones are updated with current information. In general, management’s
                    comments and corrective action plans are responsive to the
                    30 recommendations. However, the responses to Recommendations 11 and
                    18 were not adequate as they did not provide clear corrective action plans
                    and target completion dates.



VA Office of Inspector General                                                                  20
                                  VA’s Federal Information Security Management Act Audit for FY 2013


                    Further, the Executive in Charge for Information and Technology stated that
                    he intended to provide responses to the five prior-year recommendations in
                    Appendix A after performing a review of ongoing corrective actions.
                    Similar to responses provided over the past several years, management’s
                    approach to addressing these open prior-year recommendations is
                    inadequate. We remain concerned that continuing delays in implementing
                    effective corrective actions by estimated completion dates to address these
                    open recommendations can potentially contribute to reporting an IT
                    material weakness from this year’s audit of VA’s Consolidated Financial
                    Statements. Following is our assessment of the status of VA’s corrective
                    actions to address each open prior-year recommendation in Appendix A:

                    	       FY 2010–21: The status of corrective actions is unclear as VA did
                             not describe actions taken to ensure risk assessments accurately
                             reflect the current control environment.  
                    	       FY 2006–03: The status of corrective actions is unclear as VA did
                             not describe the percentage of position descriptions that were updated
                             in response to the recommendation.  
                    	       FY 2006–04: The status of corrective actions is unclear as VA did
                             not describe the percentage of work completed to ensure that
                             appropriate levels of background investigations are conducted for all
                             VA employees and contractors.  
                    	       FY 2006–08: The status of corrective actions is unclear as VA did
                             not describe the percentage of work completed to mitigate wireless
                             security vulnerabilities and implement standard network
                             configurations.  
                    	       FY 2006–09: The status of corrective actions is unclear as VA did
                             not describe the percentage of work completed to eliminate or
                             mitigate the use of clear text protocols across the enterprise.  

                    We will not close any recommendations until relevant information security
                    policies and procedures are finalized and information security control
                    deficiencies are fully remediated. We will continue to evaluate VA’s
                    progress during our audit of VA’s information security program in FY 2014.

                          




VA Office of Inspector General                                                                   21
                                      VA’s Federal Information Security Management Act Audit for FY 2013


Appendix A           Status of Prior-Year Recommendations

                     Appendix A addresses the status of outstanding recommendations not
                     included in the main report and VA’s plans for corrective action. As
                     noted in the table below, some recommendations remain in progress,
                     with estimated completion dates still to be determined. The corrective
                     actions outlined below are based on management assertions and results
                     of our audit testing.

                              Table. Status of Prior Year Recommendations
                                                                 Status
                                                                             Estimated        Corrective
  Number                 Recommendation                       (In Progress
                                                                             Completion        Actions
                                                               or Closed)
 FY 2010–21    We recommend the Assistant Secretary           In Progress    To Be        VA is establishing a
               for Information and Technology develop                        Determined   Risk Management
               mechanisms to ensure risk assessments                                      Governance Board,
               accurately reflect the current control                                     which will implement
               environment, compensating controls, and                                    uniform risk
               the characteristics of the relevant VA                                     assessment
               facilities.                                                                procedures
                                                                                          throughout VA.
               OIG comments: The status of
               corrective actions is unclear as VA did                                    Risk assessment
               not provide an adequate response to the                                    exceptions continued
               open recommendation. The response                                          to be identified
               needs to describe the actions taken to                                     during FISMA
               ensure risk assessments accurately reflect                                 testing.
               the current control environment.

 FY 2006–03    We recommend the Assistant Secretary           In Progress    To Be        VA Directive and
               for Information and Technology update                         Determined   Handbook 0710,
               all applicable position descriptions to                                    Personnel Suitability
               better describe position sensitivity levels,                               and Security
               and improve documentation of                                               Program documents
               employee/contractor personnel records                                      have been updated.
               of “Rules of Behavior” and annual
               privacy training certifications.                                           VA developed action
                                                                                          items to better
               OIG comments: The status of                                                coordinate reviews of
               corrective actions is unclear as VA did                                    existing position
               not provide an adequate response for the                                   descriptions, position
               open recommendation. The response                                          risk and sensitivity
               needs to describe the percentage of                                        determinations, and
               position descriptions updated through FY                                   current levels of
               2013.                                                                      employee background
                                                                                          investigations.




VA Office of Inspector General                                                                         22
                                    VA’s Federal Information Security Management Act Audit for FY 2013


                                                             Status
                                                                         Estimated         Corrective
  Number                Recommendation                    (In Progress
                                                                         Completion         Actions
                                                           or Closed)
 FY 2006–04    We recommend the Assistant Secretary       In Progress    To Be         VA established the
               for Information and Technology ensure                     Determined    Security Investigation
               appropriate levels of background                                        Center to ensure
               investigations be completed for all                                     background
               applicable VA employees and                                             investigations are
               contractors in a timely manner,                                         conducted.
               implement processes to monitor and
               ensure timely reinvestigations on all                                   The Office of
               applicable employees and contractors,                                   Operations, Security,
               and monitor the status of the requested                                 and Preparedness is
               investigations.                                                         coordinating actions
                                                                                       to improve
               OIG comments: The status of                                             procedures for
               corrective actions is unclear as VA did                                 ensuring background
               not provide an adequate response to the                                 investigations and
               open recommendation. The response                                       reinvestigations are
               needs to describe the percentage of work                                completed for all
               completed to ensure that appropriate                                    applicable VA
               levels of background investigations are                                 employees and
               conducted for all VA employees and                                      contractors in a
               contractors.                                                            timely manner.

                                                                                       Exceptions related to
                                                                                       timely background
                                                                                       investigations
                                                                                       continued to be
                                                                                       identified during
                                                                                       FY 2013 FISMA
                                                                                       testing.




VA Office of Inspector General                                                                      23
                                    VA’s Federal Information Security Management Act Audit for FY 2013


                                                             Status
                                                                         Estimated         Corrective
  Number                Recommendation                    (In Progress
                                                                         Completion         Actions
                                                           or Closed)
 FY 2006–08    We recommend the Assistant Secretary       In Progress    To Be         VA developed
               for Information and Technology reduce                     Determined    Directive 6512,
               wireless security vulnerabilities by                                    Secure Wireless
               ensuring sites have up-to-date                                          Technology, to
               mechanisms to protect against                                           supplement VA
               interception of wireless signals and                                    Handbook 6500. The
               unauthorized access to the network, and                                 Directive provides
               ensure the wireless network is segmented                                guidelines for
               from the general network.                                               protecting VA
                                                                                       wireless networks
               OIG comments: The status of                                             from signal
               corrective actions is unclear as VA did                                 interception,
               not provide an adequate response to the                                 enhancing network
               open recommendation. The response                                       security, and
               needs to describe the percentage of work                                segmenting VA’s
               completed to mitigate wireless security                                 wireless network
               vulnerabilities and implement standard                                  from the wired
               network configurations.                                                 network.

                                                                                       VA has begun
                                                                                       replacing the legacy
                                                                                       wireless networks
                                                                                       with more robust and
                                                                                       secure wireless
                                                                                       networks, and
                                                                                       defining strict
                                                                                       configuration
                                                                                       guidelines and
                                                                                       implementation
                                                                                       plans.

                                                                                       VA established the
                                                                                       National Wireless
                                                                                       Infrastructure Team
                                                                                       to ensure all
                                                                                       authorized VA
                                                                                       wireless access points
                                                                                       use a standard
                                                                                       wireless network
                                                                                       configuration.

                                                                                       Potential rogue
                                                                                       access points
                                                                                       continued to be
                                                                                       identified during
                                                                                       FY 2013 FISMA
                                                                                       testing.




VA Office of Inspector General                                                                      24
                                    VA’s Federal Information Security Management Act Audit for FY 2013


                                                              Status
                                                                          Estimated        Corrective
  Number                Recommendation                     (In Progress
                                                                          Completion        Actions
                                                            or Closed)
 FY 2006–09    We recommend the Assistant Secretary        In Progress    To Be        VA is developing and
               for Information and Technology identify                    Determined   integrating multiple
               and deploy solutions to encrypt sensitive                               technologies across
               data and resolve clear text protocol                                    the enterprise to
               vulnerabilities.                                                        encrypt sensitive
                                                                                       data, both at rest and
               OIG comments: The status of                                             in transit. The
               corrective actions is unclear as VA did                                 technologies include:
               not provide an adequate response to the
               open recommendation. The response                                       • Deploy Sanctuary
               needs to describe the percentage of work                                  across the
               completed to eliminate or mitigate the                                    enterprise to ensure
               use of clear text protocols across the                                    only authorized,
               enterprise.                                                               encrypted,
                                                                                         Universal Serial
                                                                                         Bus devices are in
                                                                                         use.

                                                                                       • Deploy laptop and
                                                                                         desktop encryption.

                                                                                       • Deploy Data
                                                                                         Transmission/
                                                                                         Attachmate to
                                                                                         safely host
                                                                                         information on the
                                                                                         Web.

                                                                                       VA’s “Visibility to
                                                                                       Everything” (Server
                                                                                       and Desktop)
                                                                                       program verifies
                                                                                       deployment of the
                                                                                       above technologies
                                                                                       and allows VA to
                                                                                       remediate identified
                                                                                       deficiencies.

                                                                                       Clear text protocol
                                                                                       vulnerabilities
                                                                                       continued to be
                                                                                       identified during our
                                                                                       FY 2013 FISMA
                                                                                       testing.




VA Office of Inspector General                                                                       25
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Appendix B          Background

                    On December 17, 2002, then-President George W. Bush signed FISMA
                    into law, reauthorizing key sections of the Government Information Security
                    Reform Act. FISMA provides a comprehensive framework for ensuring
                    effective security controls over information resources supporting Federal
                    operations and assets. The statute also provides a mechanism for improved
                    oversight of Federal agency information security programs.

                    FISMA requires each Federal agency to develop, document, and
                    implement an agency-wide security program. VA’s security program
                    should protect the information systems that support operations, including
                    those provided or managed by another agency, contractor, or other source.
                    As specified in FISMA, agency heads are responsible for conducting
                    annual evaluations of information security programs and practices.

                    FISMA also requires agency Inspectors General to assess the effectiveness
                    of agency information security programs and practices. Guidance has been
                    issued by OMB in both circulars and memoranda and by NIST in its
                    800 series of special publications supporting FISMA implementation
                    covering significant aspects of the law. In addition, Federal Information
                    Processing Standards have been issued to establish agency baseline
                    security requirements.

                    OMB and DHS provide instructions to Federal agencies and Inspectors
                    General for preparing annual FISMA reports. In November 2013, OMB
                    issued Memorandum M-14-04, Fiscal Year 2013 Reporting Instructions
                    for the Federal Information Security Management Act and Agency Privacy
                    Management. Federal agencies are to focus on implementing the
                    Administration’s three cybersecurity priorities established in FY 2012:
                    (1) Continuous Monitoring, (2) Trusted Internet Connection capabilities
                    and traffic consolidation, and (3) strong authentication using Personal
                    Identity Verification cards for logical access. The FY 2013 FISMA
                    metrics issued by DHS established minimum and target levels of
                    performance for these priorities, as well as metrics for other key
                    performance areas. To comply with the reporting requirements, agencies
                    must carry out the following activities:

                    	      Chief Information Officers should submit monthly data feeds
                            through CyberScope, the FISMA reporting application. Agencies
                            must upload data from their automated security management tools
                            into CyberScope on a monthly basis for a specified number of data
                            elements.
                    	      Agencies must respond to security posture questions on a
                            quarterly/annual basis. These questions address areas of risk and



VA Office of Inspector General                                                                  26
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                            are designed to assess the implementation of security capabilities
                            and measure their effectiveness.
                    	      The Chief Information Officers must report to DHS on a quarterly
                            basis, and Inspectors General and Senior Agency Officials for
                            Privacy must report to DHS on an annual basis.
                    	      Agencies must participate in CyberStat accountability sessions and
                            agency interviews conducted by DHS, OMB, and the White House
                            National Security Staff.

                    DHS reporting instructions also focus on performance metrics related to
                    key control activities, such as developing a complete inventory of major
                    information systems, providing security training to personnel, testing and
                    evaluating security controls, and testing continuity plans.

                    The OIG contracted with the independent accounting firm
                    CliftonLarsonAllen LLP to conduct the annual FISMA audit for FY 2013.
                    The OIG provided oversight of the contractor’s performance.




VA Office of Inspector General                                                                  27
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Appendix C 	 Scope and Methodology

                    The FISMA audit determines the extent to which VA’s information
                    security program complies with FISMA requirements and relevant
                    guidelines. The audit team considered Federal Information Processing
                    Standards and NIST guidance during its audit. Audit procedures
                    included reviewing policies and procedures, interviewing employees,
                    reviewing and analyzing records, and reviewing supporting
                    documentation. The VA OIG provided oversight of the audit teams’
                    performance.

                    This year’s work included evaluation of 79 selected major applications
                    and general support systems hosted at 24 VA facilities to support
                    Veterans Health Administration, Veterans Benefit Administration, and
                    National Cemetery Administration lines of business. The audit teams
                    performed vulnerability tests and evaluated management, operational,
                    technical, and application controls supporting major applications and
                    general support systems.

                    In connection with the audit of VA’s FY 2013 consolidated financial
                    statements, CliftonLarsonAllen LLP evaluated general computer and
                    application controls of VA’s major financial management systems,
                    following the Government Accountability Office’s Federal Information
                    System Controls Audit Manual methodology. Significant financial
                    systems deficiencies identified during CliftonLarsonAllen’s evaluation
                    are included in this report.

Site Selections 	   In selecting VA facilities for testing, the audit teams considered the
                    geographic region, size, and complexity of each hosting facility, as well as
                    the criticality of systems hosted at the facility. Sites selected for testing
                    included:

                       Information Technology Center—Austin, TX
                       VA Medical Facility— Cincinnati, OH
                       Terremark, Cloud Service Provider—Culpepper, VA
                       VA Medical Facility—Hampton Roads, VA
                       Information Technology Center—Hines, IL
                       VA Medical Facility—Kansas City, MO
                       VA Medical Facility—Little Rock, AK
                       VA Regional Office—Little Rock, AK
                       VA Medical Facility—Manchester, NH
                       Network and Security Operations Center—Martinsburg, WV


VA Office of Inspector General                                                                  28
                                 VA’s Federal Information Security Management Act Audit for FY 2013


                       Capitol Regional Readiness Center—Martinsburg, WV
                       VA Medical Facility— Miami, FL
                       VA Medical Facility—New Orleans, LA
                       VA Regional Office—New Orleans, LA
                       VA Medical Facility—Oklahoma City, OK
                       Information Technology Center—Philadelphia, PA
                       VA Insurance Center—Philadelphia, PA
                       VA Regional Office—Philadelphia, PA
                       Loan Guaranty Contractor Managed Facility—Plano, TX
                       National Cemetery Administration—Quantico, VA
                       VA Medical Facility—Reno, NV
                       VA Medical Facility— San Antonio, TX
                       VA Medical Facility— San Francisco, CA
                       VA Central Office—Washington, DC

                    Vulnerability audit procedures used automated scanning tools and validation
                    procedures to identify high-risk common security vulnerabilities affecting
                    mission-critical systems. In addition, vulnerability tests evaluated selected
                    servers and work stations residing on the network infrastructure; databases
                    hosting major applications; Web application servers providing Internet and
                    Intranet services; and network devices, including wireless connections.

Government          We conducted this performance audit in accordance with generally
Standards           accepted government auditing standards. Those standards require that we
                    plan and perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based on our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our audit
                    objectives.




VA Office of Inspector General                                                                  29
                                     VA’s Federal Information Security Management Act Audit for FY 2013


Appendix D           Executive in Charge for Information and Technology
                     Comments



                Department of                                   Memorandum
                Veterans Affairs

           Date:	   April 18, 2014

           From:	   Executive in Charge and Chief Information Officer, Office of Information and
                    Technology (005)

           Subj:	   Draft Audit Report: Federal Information Security Management Act (FISMA)
                    Assessment for FY 2013

             To:    Assistant Inspector General for Audits and Evaluations (52CT)



                    Thank you for the opportunity to review the subject draft audit report. The Office
                    of Information and Technology concurs and submits the attached detailed
                    comments and a partial set of artifacts to the report’s 30 recommendations.


                    Remaining artifacts will be provided under separate cover. We appreciate your
                    time and attention to our information security program. If you have any
                    questions, contact me at 202-461-6910, or have a member of your staff contact
                    Martha Orr, Executive Director for Quality, Performance and Oversight, at
                    202-461-6910.




                    Attachment




VA Office of Inspector General                                                                           30
                                    VA’s Federal Information Security Management Act Audit for FY 2013


                                                                                                 Attachment

                               Office of Information and Technology 

                                  Comments to Draft OIG Report,

                 “Federal Information Security Management Act Audit for FY 2013” 

                            OIG Recommendations and OIT Responses: 


Recommendation 1: We recommend the Executive in Charge for Information and Technology fully
develop and implement an agency-wide risk management governance structure, along with mechanisms
to identify, monitor, and manage risks across the enterprise. (This is a repeat recommendation from last
year.)

OIT Response: Concur. The Office of Information and Technology (OI&T) has implemented the
Governance, Risk and Compliance (GRC) tool as a major element of implementing an agency-wide risk
management governance structure. The GRC tool is VA’s robust repository capable of tracking the
real-time security posture of the VA’s IT systems The tool is used in concert with existing IT monitoring
and tracking tools, such as IBM End-Point Manager (IEM), SolarWinds, NESSUS, to extract, in real-time,
up to 54 NIST controls, while capturing the remaining controls via automated workflows. The Risk Vision
GRC tool automatically ties risk assessments to POA&Ms and system security plans, resulting. In a more
comprehensive understanding of VA’s security posture, far exceeding any past capabilities. The workflow
process of entering information into the GRC tool ensures that only the most current risk information is
retained. This is also true of the System Security Plan and FIPS assessments. The CIO has greater
visibility/oversight with the Risk Vision database for Authority to Operate (ATO) decisions.

OI&T maintains a mature Enterprise Risk Management (ERM) organization that proactively manages
risks that are applicable to the OIT enterprise. Within ERM, the Risk Assessment and Mitigation (RAM)
office has an IT Security and Compliance Risk Division that is focused on the assessment and mitigation
of information security risks that meet the organization's definition of enterprise-level risk. The Office of
Information Security (OIS) also has a Risk Management office that addresses information security risks
that do not rise to the level of OIT enterprise risks. This past year, the Continuous Readiness and
Information Security Protection (CRISP) Governance Council was chartered and implemented. This
Governance Council, comprised of membership from all Department stakeholders such as VHA, VBA
and NCA, is fully sanctioned by VA leadership to ensure all VA organizations are responsive to initiatives
and actions necessary to maintain heightened awareness of information security and protection and to
identify, monitor and manage risk across the enterprise.

Completed: Recommend Closure

Recommendation 2: We recommend the Executive in Charge for Information and Technology
implement mechanisms to ensure sufficient supporting documentation is captured in the central database
to justify closure of Plans of Action and Milestones. (This is a repeat recommendation from last year.)

OIT Response: Concur. The GRC tool, implemented at the end of FY 2013, monitors the real-time
security posture of the VA’s IT systems, and is the mechanism used to track active Plans of Action and
Milestones (POA&M). VA transitioned active POA&M’s from the SMART system to the GRC Risk Vision
tool, leaving completed POA&M’s in the SMART for historical purposes. The GRC tool is the sole
repository for all supporting artifacts to document POA&M process and maintains documentation to justify
closure of POA&M’s. Additionally, mechanisms, such as compliance reviews by OCS staff, annual
self-assessments by facility staff, and control implementation validation by Information Security Officers
(ISO) are currently in place to randomly check POA&M documentation

Complete – Recommend Closure




VA Office of Inspector General                                                                            31
                                    VA’s Federal Information Security Management Act Audit for FY 2013


Recommendation 3: We recommend the Executive in Charge for Information and Technology define
and implement clear roles and responsibilities for developing, maintaining, completing, and reporting
Plans of Action and Milestones. (This is a repeat recommendation from last year.)

OIT Response: Concur. Clearly defined roles and responsibilities for developing, maintaining, completing
and reporting POA&Ms are found in VA Handbook 6500 and VA Handbook 6500.3. VA Handbook 6500
includes, in section four, “Information Security Responsibilities,” the responsibilities regarding POA&Ms
for the Deputy CIO for SDE/System Owners, Executive Director for Quality, Performance and Oversight,
Under Secretaries, Assistant Secretaries, and Other Key Officials, Program Directors/Facility Directors,
ISOs, Local Program Management, Local CIOs/System Administrators/Network Administrators/Database
Managers, CO/COR, and Local HR Staff/Security and Law Enforcement Staff. POA&M responsibilities
are also addressed in VA Handbook 6500, Appendix F under controls CA-5: Plan of Action and
Milestones and PM-4: Plan of Action and Milestones.

VA Handbook 6500.3 includes, in section three, “Responsibilities,” the roles and responsibilities
regarding POA&Ms for the VA CIO, DAS OIS, System Owners, Project Managers, Information/Data
Owners, Local CIOs/System Administrators/Network Administrators, and ISOs. Appendix E describes the
process for developing the POA&M in the Authorization process. The GRC Risk Vision tool, implemented
in August 2013, is actively used to provide an automated method for assigning POA&M management
roles and responsibilities to system owners, information security officers, administrators, and mangers.

Complete – Recommend Closure

Recommendation 4: We recommend the Executive in Charge for Information and Technology
implement mechanisms to ensure Plans of Action and Milestones are updated to accurately reflect
current status information. (This is a repeat recommendation from last year.)

OIT Response: Concur. The GRC tool, implemented in August 2013, establishes mechanisms to ensure
POA&M’s are updated with currently status information. These mechanisms are inherent in the work flow
of the tool and provide the necessary checks and balances to ensure information can be entered
accurately. Integral to the specially designed workflows of RiskVision is a two-step validation
process. The information security control provider is required to provide evidence of the control
implementation status. The assigned Information Security Officer (ISO) is required to validate the
implementation status. If found deficient, the ISO generates a finding. Additionally, with the IBM
Endpoint Manager (IEM) feeds being collected by RiskVision, automated compliance checks are reported
without requiring user intervention. This allows VA to determine the compliance of a device that is part of
an accreditation boundary. This tool is the sole repository of all active POA&M’s and is actively used to
manage the POA&M process.

Completed – Recommend Closure

Recommendation 5: We recommend the Executive in Charge for Information and Technology develop
mechanisms to ensure system security plans reflect current operational environments, including accurate
system interconnection and ownership information. (This is a repeat recommendation from last year.)

OIT Response: Concur. In concert with the implementation of the GRC tool in August 2013, the
accreditation boundaries for all VA systems were evaluated, reassessed and restructured. This ensured
that the system security plans inherent in the GRC tool reflected the current operational environments
and that system interconnections were assessed for accuracy. The GRC tool also captures current
system ownership and can be easily updated. The GRC tool is the sole repository for the system security
plans ensuring proper oversight of status updates. Additionally, the requirement to have accurate,
comprehensive and up-to-date system security plans is required by VA policy, as discussed in VA
Handbook 6500.

Complete – Recommend Closure



VA Office of Inspector General                                                                          32
                                    VA’s Federal Information Security Management Act Audit for FY 2013


Recommendation 6: We recommend the Executive in Charge for Information and Technology
implement improved processes for updating key security documents such as risk assessments, security
impact analyses, and security self-assessments on at least an annual basis and ensure all required
information accurately reflects the current environment and new risks in accordance with Federal
standards. (This is a new recommendation.)

OIT Response: Concur. With the implementation of the GRC tool in August 2013, a new, improved
process was developed and established for all IT system risk assessments. Based on actual findings,
which flows through the automated system, we are now continuously monitoring and managing risk
assessments, giving us the ability to compare and contrast data, leading to improved security impact
analyses. We are also able to proactively introduce process and policy changes, based upon analysis of
information discovered in the security assessment phase. The automated manner in which this is now
managed has greatly improved the process used for updating all security documents, updates are
accomplished throughout the year, and analysis of the data ensure remediation activities are appropriate
to the current environment.

Complete – Recommend Closure

Recommendation 7: We recommend the Executive in Charge for Information and Technology
implement mechanisms to enforce VA password policies and standards on all operating systems,
databases, applications, and network devices. (This is a repeat recommendation from last year.)

OIT Response: Concur. VA implemented a process last year for monitoring password policies via
predictive scans and remediation processes on OIT systems. Routine system scans are completed by
the Network Security and Operations Center (NSOC) and Standard Operating Procedures (SOP) are in
place to ensure a structured, repeatable process. OIT continues to update information system user and
system account management policy guidance and processes that will emphasize requirements for
system owners, systems administrators, and security staffs to regularly review the account privileges and
access levels for all system users on at least an annual basis. This review will be re-emphasized as an
item that must be covered during the annual testing of application security controls.

Complete – Recommend Closure

Recommendation 8: We recommend the Executive in Charge for Information and Technology
implement periodic access reviews to minimize access by system users with incompatible roles,
permissions in excess of required functional responsibilities, and unauthorized accounts. (This is a repeat
recommendation from last year.)

OIT Response: Concur. As part of the OIT Security Calendar process used to track and manage
recurring security status updates, the Department has implemented reviews of elevated privileges every
90 days and application level access twice a year to ensure the users have minimum system access
necessary based on their role. At each facility, the local Information Security Officer (ISO) and the Chief
Information Officer (CIO) work together to identify issues and concerns with staff elevated privileges and,
when necessary, engage the supervisor for final determination and resolution. This on-going review
process serves to minimize the number of system users with incompatible roles and permissions in
excess of required functional responsibilities. Additionally, a comprehensive review of separated users
from VA occurs every 90 days. Also part of the OIT Security Calendar process, this review ensures that
staff, contractors and volunteers no longer with VA have access privileges removed from e-mail,
administrator rights and other VA systems. Please see attached artifacts.

Completed – Recommend Closure

Recommendation 9: We recommend the Executive in Charge for Information and Technology enable
system audit logs and conduct centralized reviews of security violations on mission-critical systems. (This
is a repeat recommendation from last year.)



VA Office of Inspector General                                                                          33
                                    VA’s Federal Information Security Management Act Audit for FY 2013


OIT Response: Concur. Implementation is currently unfunded in terms of storage and staffing within the
medical center/field operation environment. These tools have been implemented in our Data Center and
by our Network and Security Operations Center. Early installation of the devices for our field locations is
contingent on funding in FY 2014. If we are unsuccessful in obtaining FY 2014 funding, this requirement
will be incorporated in the FY 2015 budget operating plan.

Target Completion Date: September 30, 2015 (contingent upon receipt of funds)

Recommendation 10: We recommend the Executive in Charge for Information and Technology
implement mechanisms to ensure all remote access computers have updated security patches and
antivirus definitions prior to connecting to VA information systems. (This is a repeat recommendation from
last year.)

OIT Response: Concur. Except for a limited number of VHA clinical users, mechanisms have been
implemented to ensure all remote access computers have updated security patches and antivirus. OI&T
is working with VHA to verify key performance criteria for the critical work flows. That analysis will be
completed by the end of this fiscal year, followed by implementation.

Target Completion Date: April 30, 2015

Recommendation 11: We recommend the Executive in Charge for Information and Technology
implement two-factor authentication for remote access throughout the agency. (This is a repeat
recommendation from last year.)

OIT Response: Concur. Due to the possibility of patient safety issues associated with implementation
of the PIV card, implementation for this recommendation within VHA is on hold until care delivery work
process have been developed that accommodate the use of PIV cards by VHA. Implementation
continues throughout the rest of the Department.

Target Completion Date: To Be Determined – Dependent on implementation of new work processes by
VHA

OIG comments: The status of corrective actions is unclear as VA did not provide a concrete corrective
action plan or clear target completion date.

Recommendation 12: We recommend the Executive in Charge for Information and Technology develop
and implement policies and procedures for restricting privileged remote access from foreign countries
that may pose a significant security risk to VA systems. (This is a new recommendation.)

OIT Response: Concur. The DAS for OIS signed a memo (attached) on January 15, 2014 prohibiting
access to VA’s network from non-NATO countries, with the exception of countries where VA has
approved operations established (e.g., Philippines, South Korea). This requirement has been formalized
in the current draft version of VA Handbook 6500, which will be published by the end of fiscal year 2014.
Additionally, OIS has begun blocking Top Level Domains for country codes and IP addresses for those
countries noted above.

Completed - Recommend Closure

Recommendation 13: We recommend the Executive in Charge for Information and Technology
implement effective automated mechanisms to continuously identify and remediate security deficiencies
on VA’s network infrastructure, database platforms, and Web application servers. (This is a repeat
recommendation from last year.)

OIT Response: Concur. VA has implemented an enterprise-wide vulnerability management program
that makes use of a number of scanning tools to identify security deficiencies. The outputs from the



VA Office of Inspector General                                                                          34
                                    VA’s Federal Information Security Management Act Audit for FY 2013


scanning tools are then broken out and delivered to each data center/region/site. Those sites then
annotate those scans with status of the required action, either through remediation, mitigation or
issuance of risk based decisions. Priority attention is placed on installing the required patches to
remediate the identified deficiencies. Automated monitoring and assessment tools have also been
deployed in the VA enterprise to every laptop, desktop, servers and network device. VA will continue to
enhance the vulnerability management program by making use of the security and information event
management (SIEM) technology, which currently is in place at the Enterprise Operations (EO) data
centers. The SIEM solution will collect audit logs and alerts and facilitate the continuous identification of
vulnerabilities that require priority corrective actions. The next steps in the expanded implementation of
SIEM have been defined as consisting of three phases: EO Data Centers (complete), Gateways and
Network Backbone and the NSOC (concurrently schedule to be awarded by 30 April 2014) and Regional
Data Centers Systems (currently in planning to identify requirements and funding levels).

Target Completion Date – Phase Two (September 30, 2014)/Phase Three (September 30. 2015).

Recommendation 14: We recommend the Executive in Charge for Information and Technology
implement a patch and vulnerability management program to address security deficiencies identified
during our assessments of VA’s Web applications, database platforms, network infrastructure, and work
stations. (This is a modified repeat recommendation from last year.)

OIT Response: Concur. In February 2013, VA implemented predictive scanning and has continued to
build on and improve the patch and vulnerability program to ensure security deficiencies are proactively
addressed.      This scanning allows for the identification of vulnerabilities, remediation of those
vulnerabilities and compliance monitoring. Monthly predictive scans are tested and remediated, security
deficiencies identified and monitored during our assessments of VA’s Web applications, database
platforms, network infrastructure, and work stations. We received monthly downloads from our vendors,
which are also rigorously tested and monitored to ensure all security deficiencies are identified and
remediated. Within Enterprise Operations, a consistent program for identifying and remediating
vulnerabilities has been in place for several years.

Completed – Recommend Closure

Recommendation 15: We recommend the Executive in Charge for Information and Technology
implement standard security configuration baselines for all VA operating systems, databases,
applications, and network devices. (This is a repeat recommendation from last year.)

OIT Response: Concur. Baselines have been created covering the vast majority of systems in the VA
Enterprise. Over 95% of the servers in the Department are covered by existing operating system
baselines, including all those hosting VA’s VistA healthcare application, and virtually 100% of desktops.
Existing baselines also cover over 85% of the internetworking devices for VA. Work continues on
baselines for printers, thin clients, and SQL databases, including a plan to begin implementation in
FY2014

Target Completion Date – December 31, 2015

Recommendation 16: We recommend the Executive in Charge for Information and Technology
implement procedures to enforce a system development and change control framework that integrates
information security throughout the life cycle of each system. (This is a repeat recommendation from last
year.)

OIT Response: Concur.         In 2009 OIT Product Development (PD) and OIT Service Delivery and
Engineering (SDE) jointly implemented change and configuration management governance over software
and system controls and issued VA policy and procedures. PD implemented Change and Configuration
Management Plans (ChM/CfM) and tools for all software projects to formalize standardized software and
artifact change management controls. PD implemented tools to be standardized to manage source code



VA Office of Inspector General                                                                            35
                                    VA’s Federal Information Security Management Act Audit for FY 2013


and document change and version control. PD includes configuration managers as a necessary project
team member when activating new software development projects. PD implemented change control
boards at the program level to oversee requirements for change. PD implemented standardized
requirements management and software testing tools to enable requirements traceability capabilities and
requirement change – design change – test case change traceability is documented. PD is working with
the Office of Information Security to implement security vulnerability testing tools to be used prior to
software release to test specifically for security requirements compliance. PD implemented Integrated
Project Teams to determine compliance and readiness acceptance with internal customer requirements.
PD includes compliance with security and configuration management processes in milestone review
criteria.

Target Completion Date: September 30, 2015

Recommendation 17: We recommend the Executive in Charge for Information and Technology
implement processes to ensure information system contingency plans are updated with the required
information and lessons learned are communicated to senior management. (This is a repeat
recommendation from last year.)

OIT Response: Concur.        OIT has published VA handbook 6500 and VA Handbook 6500.8 which
provides the guidance for contingency plans specified by the National Institute of Standards and
Technology (NIST). The guidance includes the standardized processes and templates for contingency
plans. The Office of Business Continuity within OIS monitors and reports the compliance status of VA
systems with the guidance. These compliance reports will be forwarded to the executive level to ensure
proper follow-up. All offices with systems not in compliance with the guidance will need to apply
resources to update their contingency plans, and test them. OIS Office of Business Continuity will work
with all non-compliant systems to provide support and assistance. Projected completion date for all non-
compliant VA system contingency plans to be brought into compliance is March 31, 2015

Target Completion Date: March 31, 2015


Recommendation 18: We recommend the Executive in Charge for Information and Technology develop
and implement a process for ensuring the encryption of backup data prior to transferring the data offsite.
(This is a new recommendation.)

OIT Response: Concur. In response to this need, VA has identified high level requirements for an
Enterprise level Tape Backup Encryption solution, and programmed funding. We have assigned a
Program team lead, and have begun the discovery process for requirements of an enterprise wide
solution to address this issue. To address the defect and mitigate risk in the near term, a full review was
conducted on the risk and a Risk Based Decision (RBD) was implemented. This national RBD identifies
mitigating controls to compensate the lack of backup tape encryption and is further documented in local
security documentation for systems that do not support backup tape encryption, at present.

Target Completion Date – High level program plan – October 31, 2014, completion for remaining tasks to
be determined once the high level program plan is completed.

OIG comments: The status of corrective actions is unclear as VA did not provide a clear target
completion date for subordinate tasks.

Recommendation 19: We recommend the Executive in Charge for Information and Technology ensure
that agreements for alternate processing sites have been established that define the roles and
responsibilities for alternate locations in the event of a disaster. (This is a new recommendation.)

OIT Response: Concur. Region level alternate processing site agreements and MOU’s have been
developed that define the roles and responsibilities for alternate locations in the event of a disaster.
These agreements have been provided to the field CIO’s and were implemented.


VA Office of Inspector General                                                                          36
                                   VA’s Federal Information Security Management Act Audit for FY 2013



Complete – Recommend Closure

Recommendation 20: We recommend the Executive in Charge for Information and Technology review
change management procedures to ensure that any changes to system procedures are appropriately
tested, validated, documented and approved. (This is a repeat recommendation from last year.)

OIT Response: Concur. OI&T will review change management procedures to ensure that any changes
to system procedures are appropriately tested, validated, documented and approved.

Target Completion date – December 31, 2014

Recommendation 21: We recommend the Executive in Charge for Information and Technology fully
implement an automated 24-hour security event and incident correlation solution to monitor security for
all systems interconnections, database security events, and mission-critical platforms supporting VA
programs and operations. (This is a repeat recommendation from last year.)

OIT Response: Concur. Security Information & Event Management (SIEM) Procurement by the NSOC
is scheduled for FY14. Progress was delayed since our Request for Proposal (RFP) did not yield
qualified vendors and we have had to repeat the RFP process.

Target Completion Date: December 31, 2014

Recommendation 22: We recommend the Executive in Charge for Information and Technology identify
all external network interconnections and ensure appropriate Interconnection Security Agreements and
Memoranda of Understanding are in place to govern them. (This is a repeat recommendation from last
year.)

OIT Response: Concur. All Memoranda of Understanding (MOU) and Interconnection Security
Agreements (ISA) for known external network connections have been reviewed (as part of OIT’s annual
review) and updated to reflect operational environments. This review process is now part of an annual
cycle. OIT has documented these known connections and has also published guidance on this subject.

Complete – Recommend Closure

Recommendation 23: We recommend the Executive in Charge for Information and Technology
implement more effective agency-wide incident response procedures to ensure timely resolution of
computer security incidents in accordance with VA set standards. (This is a repeat recommendation from
last year.)

OIT Response: Concur. In March 2014, the VA Network Security Operations Center (VA-NSOC)
initiated an Incident Response (IR) Working Group to review current cyber security incident response
policies, procedures and performance measures. The working group will be providing recommendations
on improvements to our cyber security IR capability. One product from this group was an Executive
Decision Memo (dated 26 March 2014) mandating field personnel to adhere to the VA-NSOC timelines
(e.g. immediately for confirmed compromised hosts, within 48 hours for host scan requests, and within 72
hours for reimaging of hosts) upon direction from the VA-NSOC. The working group will also establish
performance metrics to measure effectiveness of the incident response activities, and has already
worked to incorporate new metrics into the May 2014 OIT MPR. The target implementation date for
additional VA policy revision and performance metrics is 30 September 2014. The working group will also
establish performance metrics to measure effectiveness of the incident response activities, and has
already worked to incorporate new metrics into the May 2014 OIT Performance Review (PR).

The target date for revising VA’s Incident Response Plan to include new performance metrics is 30
September 2014. OIT and the VA-NSOC participated and tested incident response capabilities during the
VA National Level Exercise in July 2012. The Incident Response Working Group will continue to review


VA Office of Inspector General                                                                       37
                                    VA’s Federal Information Security Management Act Audit for FY 2013


past cyber security incident response testing and recommend testing the incident response capability on
an annual basis. VA will also coordinate with the Department of Homeland Security to participate in other
upcoming cyber incident response exercises that may be planned by the United States Computer
Emergency Response Team. The target date for testing the department’s incident response capability is
31 December 2014. The VA-NSOC worked with the IT Workforce Development office during 2012 and
2013 to develop the NSOC Cyber Security Competency Model in the VA Talent Management System
(TMS). The competency model is currently used by all VA-NSOC personnel. All supervisors are also
required to complete supervisory training in TMS, as well as attend an on-site week of training in the core
competencies of supervision in the VA and federal service. OIT will ensure that role based security
incident response training is included in the Individual Development Plans, and completed by the
appropriate incident response personnel.

Target Completion Date – December 31. 2014

Recommendation 24: We recommend the Executive in Charge for Information and Technology provide
the OIG with timely and formal notifications of network intrusions and system compromises in accordance
with FISMA. (This is a new recommendation.)

OIT Response: Concur. We are currently providing OIG with timely and formal notification of network
intrusions and system compromises in accordance with FISMA. This is accomplished via automatic
notification in Remedy to OIG’s Computer Crimes division. Our Standard Operating Procedure and a
sample of transmissions is attached.

Complete – Recommend Closure

Recommendation 25: We recommend the Executive in Charge for Information and Technology develop
a listing of approved software and implement continuous monitoring processes to identify and prevent the
use of unauthorized application software, hardware and system configurations on its networks. (This is a
modified repeat recommendation from last year.)

OIT Response: Concur. Implementation on this recommendation continues. VA has a white list for
approved software and a black for unauthorized software. VA has a process for requesting adding
software for the white list. Implementation for continuous monitoring to prevent use of unauthorized is
still underway.

Target Completion Date: September 30, 2014

Recommendation 26: We recommend the Executive in Charge for Information and Technology develop
a comprehensive software inventory process to identify major and minor software applications used to
support VA programs and operations. (This is a modified repeat recommendation from last year.)

OIT Response: Concur. VA has a white list for approved software and a black list for unauthorized
software. VA has several tools such as Tivoli Endpoint Manager, Microsoft’s System Center
Configuration Manager and Orion, which when fully deployed will identify major and minor software
applications.

Complete – Recommend Closure

Recommendation 27: We recommend the Acting Assistant Secretary for Information and Technology
develop procedures to integrate information security costs into the capital planning process while
ensuring traceability of Plans of Action and Milestones remediation costs to appropriate capital planning
budget documents. (This is a repeat recommendation from last year.)

OIT Response: Concur. Office of Information Technology (OIT) will develop procedures that require
Plans of Action and Milestones (POA&Ms) to be formally included in OIT's Planning, Programming,
Budgeting, and Execution Process (PPBE). The PPBE process will provide traceability from projects, up


VA Office of Inspector General                                                                          38
                                    VA’s Federal Information Security Management Act Audit for FY 2013


through programs and into investments (the latter captured as Exhibit 300s and colloquially referred to as
the Capital Planning and Investment Control [CPIC] process). Subsequent to the policy statement, a
process will be developed and issued instructing POA&M developers how to enter their material into the
PPBE process for programmatic and funding consideration. These two steps will provide funding
traceability from POA&M through PPBE and into CPIC (Exhibit 300s).

Target Completion Date: June 30, 2014

Recommendation 28: We recommend the Executive in Charge for Information and Technology
implement procedures for overseeing contractor-managed cloud-based systems, ensuring OIG access to
those systems, and ensuring information security controls adequately protect VA sensitive systems and
data. (This is a modified repeat recommendation from last year.)

OIT Response: Concur. VA 6500.6 provides guidance regarding oversight of contractor managed
systems. Consistent with this policy, VA requires managed service providers to comply with these
standards, inclusive of supporting on-site Security Controls Assessments (SCAs) and allowing routine
compliance monitoring by the NSOC. To address this concern (Phase 1), where appropriate, the
Technical Acquisition Center (TAC) is incorporating language into Performance Work Statements that
requires the contractor to preserve such data, records, logs and other evidence which are reasonably
necessary to conduct a thorough investigation of any computer security incident, to fully cooperate with
all audits, inspections, investigations, or other reviews conducted by or on behalf of the Contracting
Officer or the agency Office of Inspector General and to provide the Contracting Officer, designated
representative of the Contracting Officer, and representatives of the agency's Office of Inspector General,
full and free access to the Contractor's (and Subcontractors') facilities, installations, operations
documentation, databases, and personnel used for contract hosting services.

The long term solution (Phase 2) specific to contractor-managed cloud-based systems, the “Cloud
Computing” related clauses developed are required to go through formal rulemaking. They cannot be
considered as either a modification to, nor an Alternate of an existing FAR clause (FAR 52.215-2 – Audit
and Records—Negotiation (OCT 2010)). Note that “modifications” are considered minor changes and an
“Alternate” to a given provision or clause is prescribed in the FAR subject text where Alternates are
prescribed. The clause language does not fit under either definition. FAR 52.215-2 is an existing FAR
clause. The proposed “Cloud Computing” clause and optional clause paragraphs impose substantial
new burdens on contractors and the public, as well as including substantial record-keeping requirements
on contractors and strict notification requirements to the government (such as reporting security
incidents). OI&T will work with the Office of Acquisition, Logistics and Construction to develop a long-
term clause solution.

Target Completion Date: Phase 1 – October 1, 2014, Phase 2 – TBD, Based on time for Rulemaking

Recommendation 29: We recommend the Executive in Charge for Information and Technology
implement mechanisms for updating the Federal Information Security Management Act systems
inventory, including contractor-managed systems and interfaces, and annually review the systems
inventory for accuracy. (This is a repeat recommendation from last year.)

OIT Response: Concur. The VA is continuing to improve efforts towards obtaining the highest degree
possible of accuracy of its FISMA systems. At present, IBM Endpoint Manager is present on 95% of the
Department’s servers and desktops. Further, Solarwinds is on an equivalent percentage of the network
devices. Excluded systems and devices defined as “other” are being reviewed to determine the
appropriate steps required to complete the inventory. The system inventory, maintained by GRC, is
reviewed continuously by the Risk Vision Working Group and by OIS management. Completed annual
review and are moving to a monthly validation of systems in the inventory to ensure they are assigned to
the proper accreditation boundary.

Target Completion Date: Completed.




VA Office of Inspector General                                                                          39
                                   VA’s Federal Information Security Management Act Audit for FY 2013


Recommendation 30: We recommend the Executive in Charge for Information and Technology
implement mechanisms to ensure all users with VA network access participate in and complete required
VA-sponsored security awareness training. (This is a repeat recommendation from last year.)

OIT Response: Concur. VA continues to excel in the area of security awareness training, reporting that
more than 98% of VA staff and contractors take updated security awareness training annually.
Compliance to this training requirement is constantly monitored throughout the year and training stand
downs occur for all organizations within VA each March. 100% of users should have completed security
awareness training before access is granted. VA policy as stated in 6500 is to not grant access until
security awareness training is completed. IT Workforce Development can run TMS reports to verify if a
person has completed the training but has no way to determine when access was granted. The local ISO
authorizes network access. Office of Information Technology (OIT) will continue to work with the various
VA entities specifically identified in this report to ensure the completion of #10176 VA Privacy and
Information Security Awareness and Rules of Behavior in the VA's Talent Management System (TMS).
This training is the Inspector General's (IG's) accepted training process currently developed each year by
the mandatory training business owner, OIT's IT Workforce Development team. VA’s most current
compliance rate is attached.

Target Completion Date: Completed.




VA Office of Inspector General                                                                         40
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Appendix E          Office of Inspector               General       Contact        and      Staff
                    Acknowledgements

                      OIG Contact 	              For more information about this report, please
                                                 contact the Office of Inspector General at
                                                 (202) 461-4720.

                      Acknowledgments            Michael Bowman, Director
                                                 Carol Buzolich
                                                 Elijah Chapman
                                                 Michael Miller
                                                 Neil Packard
                                                 Richard Purifoy
                                                 Felita Traynham




VA Office of Inspector General                                                                  41
                                 VA’s Federal Information Security Management Act Audit for FY 2013


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs 

                    House Appropriations Subcommittee on Military Construction, 

                     Veterans Affairs and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction,
                     Veterans Affairs and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    Government Accountability Office
                    Office of Management and Budget
                    Department of Homeland Security




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  42
